                               SENSITIVE BUT UNCLASSIFIED




                   UNITED STATES DEPARTMENT OF STATE
               AND THE BROADCASTING BOARD OF GOVERNORS
                               OFFICE OF INSPECTOR GENERAL


ISP-I-14-20A                                  Office of Inspections                                       July 2014




                         Inspection of
                  Embassy Bujumbura, Burundi




IMPORTANT NOTICE: This report is intended solely for the official use of the Department of State or the
Broadcasting Board of Governors, or any agency or organization receiving a copy directly from the Office of
Inspector General. No secondary distribution may be made, in whole or in part, outside the Department of State or
the Broadcasting Board of Governors, by them or by other agencies of organizations, without prior authorization by
the Inspector General. Public availability of the document will be determined by the Inspector General under the
U.S. Code, 5 U.S.C. 552. Improper disclosure of this report may result in criminal, civil, or administrative penalties.




                               SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED



                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2012 by the Council of the Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instances of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

        In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate,
circulated, reviewed, and compiled the results of survey instruments; conducted on-site interviews;
and reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                        i
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Robert B. Peterson
                                              Assistant Inspector General for Inspections




                                        ii
                           SENSITIVE BUT UNCLASSIFIED
                         SENSITIVE BUT UNCLASSIFIED


                                Table of Contents
Key Findings                                                                   1
Context                                                                        2
Leadership                                                                     3
  Rightsizing                                                                  4
  Staffing and National Security Decision Directive 38                         5
  Mission Priorities                                                           5
  Country Team and Interagency Relations                                       6
  Emergency Preparedness                                                       6
  Post Management and Public Diplomacy                                         6
  Professional Development and Mentoring of First- and Second-Tour Officers    7
Policy and Program Implementation                                              8
  Advocacy and Analysis                                                        8
  Foreign Assistance                                                           8
  Public Diplomacy                                                             9
  Broadcasting Board of Governors                                             11
  Consular Affairs                                                            11
Management Resources                                                          14
  Management Operations                                                       14
  Financial Management                                                        15
  Human Resources                                                             16
  General Services                                                            18
  Personal Property Management                                                18
  Motor Pool                                                                  19
  Facilities Management                                                       19
  Information Management                                                      20
Quality of Life                                                               22
  Community Liaison Office                                                    22
  Schools                                                                     22
  Health Unit                                                                 22
  American Employee Recreation Association                                    22
Management Controls                                                           23
List of Recommendations                                                       24
List of Informal Recommendations                                              27
Principal Officials                                                           28
Abbreviations                                                                 29




                                     iii
                         SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Key Findings
   •   The Ambassador’s vision of growing the size of the embassy is not supported by
       available resources.

   •   Political and economic reporting lacks classified analysis, and the volume is limited.

   •   The embassy does not prioritize its personnel and resources, especially in the area of
       public diplomacy, and its workload level is not sustainable.

   •   American staff morale is low, in part a result of work pressure and travel restrictions.

   •   The embassy is not reimbursed for all the costs of supporting military personnel assigned
       to the embassy by the regional combatant command.

   •   Funding and staffing levels are adequate for embassy operations.

   •   The management section provides good administrative support services.


All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where the OIG team did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 6 and 30, 2014, and in
Bujumbura, Burundi, between February 18 and 28, 2014. Ambassador Lawrence Butler (team
leader), Kenneth Hillas (deputy team leader), Paul Cantrell, Ellen Engels, James Norton, John
Philibin, Lavon Sajona, Scott Thayer, Ken Moskowitz, and Timothy Wildy conducted the
inspection.




                                        1
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Context
        Burundi is located in the Great Lakes region of southeastern Africa. It borders Rwanda,
Tanzania, and the Democratic Republic of the Congo. A former Belgian colony, Burundi
separated from Rwanda upon gaining independence in 1960. With a population of 10.1 million
(2012 estimate), Burundi has been plagued by decades of ethnic conflict between the Hutu and
Tutsi peoples, which has taken more than 500,000 lives. President Nkurunziza, who led a Hutu
rebel group, took power in 2005, following democratic elections, and leads a multiparty
governing coalition. The embassy has restricted travel for more than 10 years for security
reasons.

        One of the poorest countries in the world, Burundi has a per capita gross domestic
product of only $600 (2012 estimate). More than 90 percent of the population depends on
subsistence farming. The HIV infection rate is 1.3 percent (2012 estimate). Between 2006 and
2012, the gross domestic product grew at an annual rate of 4 percent, with foreign assistance
representing 42 percent of Burundi’s national income. Burundi exports less than $100 million in
goods annually. Almost no foreign direct investment exists in the country. In 2009, Burundi
received $700 million in international debt relief. That year, the country also joined the East
Africa Community, boosting regional trade opportunities.

         The possibility that President Nkurunziza may seek to change the constitution to allow
for his reelection in 2015 has raised international concern. The United Nations Security Council
extended the Burundi political mission, which helped stabilize the country through 2014. After
the conclusion of the political mission, a United Nations electoral observer mission will be
established in 2015. Burundi contributes to United Nations peacekeeping missions in Somalia
and the Central African Republic. The U.S. military provides in-country training to the
Burundian armed forces; negotiations on a Status of Forces Agreement recently concluded.

        In October 2012, the embassy occupied the new embassy compound. In addition to the
Department of State (Department), the U.S. Agency for International Development (USAID) and
the Department of Defense (DOD) are represented in the embassy. The mission has a total staff
of 186, with 33 authorized U.S. direct-hire positions. The embassy occupies a modern compound
with an electrical generating capacity equal to that of the entire national grid. The capital cost of
the new embassy compound, $137 million, is 25 percent of the national government’s annual
budget.

       The embassy’s Integrated Country Strategy (ICS) identifies three strategic objectives:
government accountability and transparency; national and regional peace and security; and
economic growth, regional integration, and improved health conditions. The deputy chief of
mission (DCM) position was filled on a temporary basis from November 2013 to April 2014.




                                         2
                            SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Leadership
        In performing this inspection, the OIG team conducted three confidential surveys of
mission staff, focusing on the quality of leadership and supervision; security; overall strengths
and weaknesses of the mission; the quality of embassy services; and possible waste, fraud, and
abuse. The team interviewed all U.S. direct-hire employees of the Department, a majority of the
locally employed (LE) professional staff, and all agency heads at the embassy. The team
observed staff meetings and a variety of activities. It examined documents relating to embassy
policies and programs and assessed embassy reporting. Before traveling to Burundi, the team
interviewed personnel throughout the Department and at two other government agencies with
interests in or perspectives on the embassy. The judgments in this report are based on those
interviews, documents, surveys, and observations and reflect the conclusions of an inspection
team with substantial experience covering all functions of the Department at overseas missions
and in Washington.

        The embassy staff respects the Ambassador for her achievements, vision, and
indefatigable energy in advancing U.S. interests in Burundi but is hard pressed to keep up with
expectations. The Ambassador has made herself the hub of embassy operations, with section and
agency heads reporting directly to her. This hub-and-spoke organizational structure results in the
Ambassador making decisions on issues such as leave requests for U.S. direct hires. She
monitors coverage plans for individual absences and occasionally withholds approval, if she
deems them inadequate. A revolving door of temporary DCMs, including the embassy’s third-
tour political officer, assisted the Ambassador for the 3 months prior to the inspection. The
presence of three short-term, acting DCMs—who lacked sufficient time on the ground to gain
the Ambassador’s confidence and an understanding of embassy operations—reinforced the
Ambassador’s tendency to micromanage.

        Multiple interviews of staff members and responses to OIG surveys revealed staff
members’ concern that the Ambassador has an occasionally harsh leadership style. This
assessment was based on incidents when she scolded individuals in a group setting over
performance shortcomings. As a result, staff members have told the OIG team they are less
willing to show initiative or take chances, because they are concerned about failing to meet the
Ambassador’s high expectations. The arrival of a permanent DCM in April 2014 represents an
opportunity for the Ambassador to delegate operational authority.

Recommendation 1: Embassy Bujumbura should delegate authority over internal mission
management to the deputy chief of mission and publicize this decision to all mission elements.
(Action: Embassy Bujumbura)

         Despite her self-assessment to the OIG team that the pace and volume of current work at
her embassy is unsustainable, the Ambassador either has accepted or initiated many new
activities over the past 6 months, such as preparing a quarterly assessment of Burundian
conditions indicating a risk of political violence. Embassy staff strains to keep up with work
demands; many U.S. direct hires routinely work extra hours to accommodate the Ambassador’s
demands on staff to organize special events, draft speeches, and coordinate media coverage. The
staff manages these demands by working weekends and staying late in the office on weekdays.
                                        3
                           SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

The Ambassador, whose position allows her to work from home while others cannot, has not
succeeded in convincing her overworked staff that sustaining a high operations tempo and
sacrificing free time are worthwhile. She conveys the impression that this kind of 24/7 work
rhythm is normal. Personal questionnaires indicate that the embassy’s operating tempo has
eroded morale and has also undermined the embassy’s ability to surge should events require. The
OIG team counseled the Ambassador on the need to apply, in a disciplined fashion and within
existing resources, the embassy’s ICS priorities to its operational activities.

        Staff morale at the embassy is below average, according to the OIG survey and
interviews with personnel. This low morale is due to two sets of factors: the hardship associated
with Burundi’s isolation and lack of free-time amenities, compounded by restrictions on travel.
Further contributing to the situation are the country’s extreme poverty and uneven availability of
ordinary consumer items, the tropical environment, and overtime work to keep up with the
Ambassador’s high expectations and operations tempo. The effect is that the U.S. staff is
wearing down. This is especially noticeable among the first- and second-tour officers, though as
a group they continue to perform at high levels. The arrival of a new permanent DCM is an
opportunity to reset the embassy’s operational pace and address morale problems.

Rightsizing

        In the embassy’s ICS and Mission Resource Request, as well as in OIG interviews, the
Ambassador has made clear her ambitions to grow the embassy from a Class 2 to a Class 3
mission. 1 In her view, more personnel resources are needed for the embassy to carry out its
mission. Since the 2007 OIG inspection report, the mission’s U.S. direct-hire staffing has grown
by 9 positions: 3 from the Department and 6 from other agencies. LE staffing increased by 59
positions: 52 from the Department and 7 from other agencies. At the same time, the total
Department operating budget increased by $1.82 million. By 2018, the embassy predicts a net
increase of 23 positions: 7 U.S. direct hires, 1 eligible family member, and 15 LE staff members.
In its 2013 analysis, the Office of Management Policy, Rightsizing, and Innovation predicts
modest increases of only 1 U.S direct hire and 9 LE staff members.

        The OIG team found no evidence of the Department’s willingness to fund the embassy’s
projected growth. The embassy’s rightsizing review does not reflect realistic goals and
objectives. The Bureau of African Affairs did not respond to the embassy’s most recent Mission
Resource Request concerning plans for embassy growth.

Recommendation 2: Embassy Bujumbura, in coordination with the Office of Management
Policy, Rightsizing, and Innovation and the Bureau of Human Resources, should resubmit its
rightsizing report on the basis of current operating conditions, realistic staffing predictions,
programmatic and funding goals, and the minimum number of U.S. direct-hire staff necessary to
run the embassy. (Action: Embassy Bujumbura, in coordination with M/PRI and DGHR)



1
 Embassies are ranked in size from smallest (1) to largest (5+) on the basis of workload implications as measured
with the overseas staffing model, per 2 Foreign Affairs Manual 130.

                                             4
                                SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED

Recommendation 3: The Bureau of African Affairs, in coordination with the Bureau of Human
Resources, should provide a response to Embassy Bujumbura’s Mission Resource Request and
Integrated Country Strategy, in particular with regard to projected staff growth. (Action: AF, in
coordination with DGHR)

Staffing and National Security Decision Directive 38

        The recent and rapid expansion of the DOD presence at the embassy includes a number
of indefinite-term and temporary duty military personnel working out of the embassy but not
under chief of mission authority or part of a National Security Decision Directive 38 process. 2
The U.S. Africa Command filled three positions beyond 1 year with temporary duty personnel.
The embassy is working to finalize agreements with the Combined Joint Task Force–Horn of
Africa and Special Purpose–Marine Amphibious Ground Task Force on administrative support
payments covering these personnel, but the associated capital security costs are not being
recouped, in violation of the intent of the regulation. 3

Recommendation 4: Embassy Bujumbura should finalize agreements with the Department of
Defense for administrative support services for the indefinite-term military personnel operating
in embassy facilities and using embassy services. (Action: Embassy Bujumbura)

Recommendation 5: Embassy Bujumbura should request the U.S. Africa Command to submit
National Security Decision Directive 38 requests to formalize the continuing presence of liaison
and other positions in accordance with Department of State procedures for positions occupied
beyond 1 year from establishment. (Action: Embassy Bujumbura)

Mission Priorities

       The mission recently completed its ICS, but the OIG team did not observe the
Ambassador evaluate her proliferating initiatives and projects against the strategic priorities of
the ICS and available resources.

       The mission’s ICS and embassy reporting makes little reference to the risk of atrocity.
Atrocity prevention/conflict mitigation is mentioned briefly as an ICS subobjective as the
country prepares for national elections in 2015.

        The Ambassador agreed to host a U.S. interagency team in summer 2013 to evaluate and
test a model for predicting trends toward outbreaks of mass violence. The team’s report,
completed in August 2013, lists recommendations for the embassy and Washington agencies,
including quarterly reports by the embassy. The Atrocities Prevention Board has not accepted the
report’s recommendations, and until such time the recommendations do not have official
standing. The OIG team found no documentation that the Department had authorized or directed
the embassy on this high-profile initiative with resource implications. The Ambassador

2
    14 STATE 18064.
3
    6 Foreign Affairs Handbook (FAH)-5 H-351.2.


                                             5
                                SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

acknowledged her communication with Washington had been verbal and that she was undecided
as to whether the project was feasible.

Recommendation 6: Embassy Bujumbura should seek guidance from the Department of State
before expending further resources on the atrocities prevention/conflict mitigation pilot project.
(Action: Embassy Bujumbura)

Country Team and Interagency Relations

        The Ambassador reinvigorated negotiations, which had languished for years, to conclude
a Status of Forces Agreement providing privileges and immunities for the growing presence of
U.S. military trainers in Burundi. She has excellent relations with the head of the regional U.S.
combatant command, U.S. Africa Command, and the commander of the Combined Joint Task
Force–Horn of Africa in Djibouti. She hosted both commanders during visits to Burundi. She
coordinates well with the Defense attaché and the head of the recently established Office of
Security Cooperation.

        The political section and Defense attaché office do not coordinate their reporting with
each other on issues of shared interest and responsibility. As a result, the quality of reporting on
security and political-military issues suffers, and the lateral links within the embassy that
contribute to the mission’s cohesiveness are absent.

       Informal Recommendation 1: Embassy Bujumbura should issue guidelines on the
       coordination of reporting on security and political-military issues.

        The other non-Department agency presence in Bujumbura is a USAID country
representative who manages a $40.1 million (FY 2013) budget that includes $33.1 million for
health and $7 million for the Food for Peace program. During 1 week of the inspection, nearly
half the Ambassador’s scheduled activities were related directly to USAID and development,
reflecting micromanagement of USAID operations.

Emergency Preparedness

         U.S. direct-hire employees receive 5-percent danger pay and are subject to tight travel
restrictions, a fading reminder of the political violence of the 1990s that may no longer reflect
current conditions. Burundi’s internal security situation is much improved and now boasts a
decade-long record of no attacks on U.S. officials or credible, imminent terrorist threats. USAID,
public diplomacy employees, and U.S. military personnel frequently travel widely across the
country without incident. Most of the current employees told the OIG team they do not believe
the embassy’s travel restrictions are warranted. The restrictions may also negatively affect the
embassy’s ability to recruit mid-level officers. See the classified annex to this report for a
discussion of travel restrictions.

Post Management and Public Diplomacy

       The Ambassador is overexposed in the Burundian media. She has diluted the impact of
the small public diplomacy staff with demands for outreach at every opportunity, without regard
                                               6
                          SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

to prioritizing resources on high-yield activities more likely to receive media attention. In a
1-week period during the inspection, the embassy issued four press releases on the Ambassador’s
outside events, but these received scant local media coverage. The OIG team counseled the
Ambassador on ways to improve embassy media coverage.

Professional Development and Mentoring of First- and Second-Tour Officers

        The embassy does not have a formal, structured program for the professional
development of first- and second-tour (FAST) officers. Embassy Bujumbura has eight FAST
officers, three of whom are specialists. FAST officers comprise half the Department’s U.S.
direct-hire employees at the embassy. Every section has a FAST officer, with the exception of
public affairs. Only one Department employee in the embassy has had more than three
assignments overseas. Prior to November 2013, FAST officers served as note-takers at meetings
with Burundian officials and drafted reporting messages. FAST officers do not meet regularly
with a senior embassy officer concerning professional development.

        The Secretary, the Director General, and other senior Department officials have made it
clear that ambassadors and DCMs should play an active role in contributing to the professional
development of FAST personnel. 4 The arrival of a new DCM in April 2014 is an opportunity for
the embassy to establish an effective FAST professional development program. Several other
embassies have successful FAST programs that could serve as models for Bujumbura.

Recommendation 7: Embassy Bujumbura should establish a structured professional
development and mentoring program for first- and second-tour officers that includes the active
engagement of the deputy chief of mission. (Action: Embassy Bujumbura)




4
 State Department cable 14 STATE 1936 “Mentoring the Next Generation – Take Charge!” dated February 22,
2014

                                           7
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Advocacy and Analysis

        The political and economic sections each consists of one U.S. direct-hire officer,
supported by three LE staff members who informally backstop one another. A FAST officer on a
1-year rotation fills the economic position. Embassy management recently decided to cancel the
rotation and convert the economic position to a 2-year tour, which will enhance development of
the officer’s professional skills and substantive knowledge. A combined political/economic
section, however, would provide needed synergy, formalize back-stopping responsibilities
among the LE staff members, and provide more effective direct supervision of the economic
officer, which are lacking in the current configuration.

Recommendation 8: Embassy Bujumbura should establish a combined political/economic
section and revise position descriptions accordingly. (Action: Embassy Bujumbura)

         Political and economic reporting is largely unclassified and limited in volume and
analysis. The majority of cables were spot reports. A series of acting DCMs since November and
some staffing gaps have contributed to the situation. In 2013, Embassy Bujumbura transmitted a
total of 30 classified cables; in the second half of that year, the embassy transmitted only 4
classified political or economic cables. The embassy has a reporting plan tied explicitly to the
goals and objectives of the ICS. With the exception of mandatory reports, the embassy had
transmitted only a handful of its projected reports. Most reporting showed inattention by drafters,
clearers, and approvers to substantive and organizational techniques taught at the Foreign
Service Institute. Overcoming these shortcomings will require sustained attention by the next
DCM in providing direction and mentoring. The OIG team counseled the embassy on ways to
improve reporting.

Foreign Assistance

Grants Management

       The economic and public affairs officers both hold grants warrants, and the successor to
the economics officer is obtaining a grants warrant. In the past 2 fiscal years, the section has
overseen seven small grant programs focused on democracy, human rights, and development.
Over the past 3 fiscal years, these programs have had a budget of approximately $788,000.
Because the new economics officer is married to the public affairs officer, the embassy will not
have a warranted grants officer when they are on leave.

Recommendation 9: Embassy Bujumbura should identify a third officer to be a warranted
grants officer and obtain the requisite certification for that officer. (Action: Embassy Bujumbura)

       An LE staff member in the economic section is the sole grants officer representative in
the embassy. Other sections often seek her assistance with their grants, which diverts her from
working on other economic issues.


                                        8
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Bujumbura should identify staff members in
       each section that oversees a grant to be certified as grants officer representatives.

President’s Emergency Plan for AIDS Relief

        USAID administers most of the funding for HIV/AIDS relief in Burundi, which totaled
$18.5 million in FY 2013. DOD also includes HIV/AIDS prevention in its training of Burundian
soldiers going to participate in international peacekeeping missions. The Ambassador exercises
effective oversight of foreign assistance.

Leahy Vetting

        Burundi’s history makes relevant the statutory requirement that all foreign security force
recipients of U.S. training be vetted for human rights violations. The regional security office
coordinates such vetting in the embassy and relies upon other sections and agencies to input data
and conduct internal checks properly. One other U.S. agency in the embassy struggles to fulfill
its responsibilities with regard to Leahy vetting procedures, creating an undue burden on the
embassy’s Leahy coordinator. The Foreign Service Institute maintains online training courses for
Leahy vetting.

Recommendation 10: Embassy Bujumbura should require all embassy personnel involved in
Leahy vetting to receive Leahy vetting training. (Action: Embassy Bujumbura)

Public Diplomacy

       The public affairs section carries out a variety of outreach programs with a small staff
(one Foreign Service officer and three Foreign Service nationals) but struggles to manage its
workload. The section has an outsized volume of contractual commitments to grantees and
partners at American Spaces, and the embassy’s ICS for 2015–2017 includes responsibility for
21 key public affairs activities. The embassy has not prioritized its public affairs activities, which
include democracy training, press freedom, entrepreneurship training, English-language
teaching, women’s advancement, ending political corruption, and strengthening political dialog.
A neighboring mission with a public affairs section of 3 U.S. direct hires, 13 LE staff members,
and twice the budget has an ICS with only 5 key public affairs activities. The Under Secretary
for Public Diplomacy and Public Affairs has issued guidance that embassies should limit the
number of key public diplomacy activities to no more than five.

Recommendation 11: Embassy Bujumbura should amend its Integrated Country Strategy for
FYs 2015–2017 to assign no more than five key activities to the public affairs section. (Action:
Embassy Bujumbura)

        The Department deadline for submission of the embassy’s public diplomacy
implementation plan was January 20, 2014. At the time of the inspection, the embassy had not
provided its submission to the Department, although the public affairs officer conducted strategic
planning meetings with his staff and analyzed staff time spent on activities, use of resources, and
relative public diplomacy impacts. However, the data produced have not been linked to public
diplomacy implementation plan priorities.
                                                9
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Bujumbura should submit its first public diplomacy
implementation plan to the Office of the Under Secretary for Public Diplomacy and Public
Affairs. (Action: Embassy Bujumbura)

Cultural Programs and Grants

        The section has had difficulty handling the legacy portfolio of about 50 grants totaling
$245,000 since 2011. The section has not closed out a majority of these grants. The section has
no grants officer representative to assist and advise the section head. The section’s cultural
assistant manages alumni association grants ($16,086 in FY 2013), but the section’s monitoring
of these grants is inadequate. The public affairs officer spends about 5 percent of his time on
grants. An example of a typical consequence comes from a museum that reported spending its
entire $25,000 grant, but an OIG inspector who visited the site saw the grant work had not been
completed.

        Sixty percent of the cultural assistant’s time, according to his position description, is
committed to alumni programs and educational advising. Burundi has 1 alumni association, with
about 10 active members, and only 124 Burundi undergraduate and graduate students in the
United States during the 2012–2013 academic year, only some of whom receive educational
advice. These activities do not conform to the cultural assistant’s position description.

Recommendation 13: Embassy Bujumbura should revise the position description of the cultural
assistant (position no. C70100) to have an incumbent serve as grants officer representative and
receive the requisite training and certificate. (Action: Embassy Bujumbura)

American Spaces

       The section’s public spaces comprise an Information Resource Center in the embassy and
three American Corners, all of which opened in the past year and two of which are in
Bujumbura. Two of the partners for the American Corners have uncertain finances and
inexperienced directors. The American Corners pay about $1,000 per month for Internet access.
The Democratic Republic of the Congo’s capital, Kinshasa, which has significantly expanded
embassy public outreach, is the only other city in Africa with three American Spaces. The OIG
team counseled the public affairs officer to monitor the performance and sustainability of the
American Corners.

Information Programs and Digital Outreach

        The section produces a weekly media summary of the major French- and Kirundi-
language newspapers and Web sites, but the majority of Burundians get their news from radio.
The public affairs officer agreed with the OIG team to do more radio monitoring. On average,
the embassy issues a press release every week, almost all of which cover the Ambassador’s
public activities. The large volume has resulted in decreased media interest. The OIG team
counseled the embassy to scale back the number of press releases and focus on strategic
messaging priorities.


                                       10
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Burundi has a miniscule audience for digital products. Only 1.7 percent of the public has
access to the Internet, and only 17 percent of that audience accesses the Internet for news.
Facebook statistics show it has a penetration rate of 0.4 percent. The embassy posted two videos
to YouTube, which, at the time of the inspection 9 months later, had combined total views of
only 322. Because social media demands regular interaction with users, neither the staffing in the
section nor the audience in Burundi can justify this activity. The public affairs officer agreed to
focus staff time on the embassy Web site, which needs attention. At the time of the inspection, it
featured an announcement for a recruiting effort that had ended more than a month earlier.

Recommendation 14: Embassy Bujumbura should close its Facebook and YouTube pages.
(Action: Embassy Bujumbura)

Broadcasting Board of Governors

       The Broadcasting Board of Governors (BBG) transmits Voice of America programming
in Kirundi and French on shortwave and via two FM radio affiliates and one television affiliate
in Burundi. BBG has been actively pursuing its own 24/7 FM broadcast station, and in December
2013 received a broadcast license from the Government of Burundi for two radio frequencies.
The license will be renewed annually, and broadcasting is expected to start later in 2014.

       BBG is negotiating with the government broadcaster to host the BBG-provided
transmitters and antenna combiners. This initiative is consistent with BBG’s goal 5 (Rationalize
Program Delivery) of its 5-year Strategic Plan, Impact Through Innovation and Integration,
which calls for expanding “local distribution through affiliation with strong local television and
FM radio stations and, where possible, installation of FM transmitters.” The embassy has
provided BBG officials with needed support.

Consular Affairs

        The consular section provides nonimmigrant visas and American citizens services. The
consular chief communicates regularly with U.S. citizens and with a wide range of contacts in
the host government; other foreign missions; and with hospitals, airlines, and other essential
support services.

Visa Adjudication Reviews

        The DCM directly supervises the consular chief and the officer who backs her up in her
absence. The acting DCM, who departed the embassy at the completion of the OIG inspection,
completed timely adjudication reviews of visas issued, overcome, and refused, as required.
However, there was a hiatus in November and December, when this responsibility was not met.
As a result, the consular officers did not get timely input and feedback about the decisions they
made adjudicating nonimmigrant visas. Without this important oversight, consular officers may
be unaware of potential errors in their interpretation of immigration law and regulation, which
can directly affect border security.



                                       11
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 15: Embassy Bujumbura should require the consular officer’s supervisor to
perform nonimmigrant visa adjudication reviews in accordance with Department of State
regulations. (Action: Embassy Bujumbura)

Consular Training and Backup

        The officer who will replace the current consular chief in summer 2014 has no previous
consular experience. To ensure an adequate level of performance and compliance with
regulations, the new consular chief will need embassy-specific training and clear, detailed
guidance, in addition to standard consular training in Washington, to help her fulfill the many
obligations she will face as the new consular chief.

Recommendation 16: Embassy Bujumbura should establish a structured training program for
the new consular section chief. (Action: Embassy Bujumbura)

        The embassy does not have a sufficient number of officer positions designated to back up
the consular officer. The embassy has one consular officer position and one other officer position
formally designated for backup consular responsibilities. The formal designation requires that an
officer assigned to the position complete consular training prior to taking on the position. To
ensure that the consular function is adequately covered, the embassy should have at least two
officer positions designated as having backup consular responsibilities.

Recommendation 17: Embassy Bujumbura, in coordination with the Bureaus of African Affairs
and Consular Affairs, should designate an additional officer position to have backup consular
responsibilities. (Action: Embassy Bujumbura, in coordination with AF and CA)

Crisis Preparedness

        Consular crisis plans do not reflect awareness of the crisis preparedness of groups that
include substantial numbers of U.S. citizens. The embassy reports that 40 percent of the
estimated 300 U.S. citizens in Burundi are attached to missionary organizations and an additional
40 percent work for nongovernmental organizations. Such organizations typically have their own
crisis management plans. To prepare adequately for a crisis, the consular chief would benefit
from familiarizing herself with the planning of those organizations, briefing leadership on the
embassy’s crisis plans, and exploring areas for collaboration.

Recommendation 18: Embassy Bujumbura should meet with missionary groups and
nongovernmental organizations to explain the embassy’s consular crisis plans, review these
organizations’ crisis plans, and explore ways to collaborate. (Action: Embassy Bujumbura)

       The Bureau of Consular Affairs is prepared to assist the consular section in crisis
management planning but is not familiar with the embassy’s consular crisis plans. To prepare
adequately for possible crises, the Bureau of Consular Affairs relies on embassies’ crisis
management plans, including periodic updated risk assessments that identify likely crises,
describe the consular services to be provided, and detail the challenges the embassy faces in
providing these services.

                                       12
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED

Recommendation 19: Embassy Bujumbura should periodically provide the Bureau of Consular
Affairs with an updated risk assessment. (Action: Embassy Bujumbura)

         The Office of Consular Crisis Management recommends that an embassy coordinate its
crisis plan with consular sections of U.S. embassies in nearby countries. Embassy Bujumbura has
not done so, however. Such coordination prepares embassies in the region to assist evacuated
private U.S. citizens and to provide temporary duty officers, if needed.

Recommendation 20: Embassy Bujumbura should coordinate its crisis plans with U.S.
embassies in the region. (Action: Embassy Bujumbura)




                                      13
                          SENSITIVE BUT UNCLASSIFIED
                                SENSITIVE BUT UNCLASSIFIED


 Management Resources
                          U.S.                              U.S.
                                         Personal                       Foreign
                         Direct-                           Local-                       Total     Total Funding
      Agency                             Services                       National
                          Hire                              Hire                        Staff       FY 2013
                                        Contracts*                       Staff
                          Staff                            Staff
 Department of
 State
 Diplomatic &
 Consular                                                                                              $732,700
 Programs                         9                                2               8        19
 Consular Affairs                 0                                0               1         1          $62,275
 Machine-
                                                                                                       $126,242
 readable Visas                   0                                1               1         2
 ICASS                            5                                5            121       131        $5,126,250
 Public
                                                                                                       $339,100
 Diplomacy                        1                                0               3         4
 Diplomatic
                                                                                                    $166,646.00
 Security                         2                                0               2         4
 Marine Security
                                                                                                    $138,320.00
 Guards                           8                                0               3        11
 Representation                   0                                0               0         0       $13,700.00
 Department of
 Defense
 Defense Attaché
                                                                                                    $216,263.00
 Office                           4                                0               1         5
 Office of
 Defense
 Cooperation                      2                                0               2         4
 PEPFAR Navy                      0                                0               1         1       $28,177.00
 USAID                            2                 5*             1             11         19
 Totals                         33                    5            9            154       201     $6,949,673.00
Source: Embassy Bujumbura.
* Personal services contracts include U.S.-based contract employees and local-hire contractors.

Management Operations

       In 2013, Embassy Bujumbura’s International Cooperative Administrative Support
Services (ICASS) scored above 4 on a 1–5 scale in 25 of 30 categories. Procurement, vehicle
maintenance, motor pool, residential operations maintenance, and leasing scored slightly below
4.



                                            14
                                SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

        Completed in October 2012, the 10-acre new embassy compound includes the chancery,
warehouse, Marine house, facilities and maintenance workshops, and pool house. The office
space is functional, meets Overseas Buildings Operations (OBO) and Diplomatic Security
standards, and is adequate for all agency staff.

       The embassy has complied with State-USAID Joint Management Council guidance that
mandates consolidation of motor pool, housing, and household furniture and appliance support
services. The USAID East Africa regional mission, based in Nairobi, provides human resources
and financial management services to USAID staff, because these cost centers are exempt from
the mandate.

       Funding and staffing levels are adequate for operations. Management controls are in
place and working properly in most units. The management section uses the Department’s
automated Integrated Logistics Management System to its full extent. The ICASS council and
ICASS budget committee both function in accordance with guidelines.

Financial Management

        The OIG team found no anomalies in cashier operations, funds management, premium-
class travel, unliquidated obligations, suspense deposit account, or vouchering.

Personal Use of Government Telephones

        The embassy recently revised its policy and procedures for use of cellular telephones and
land lines to comply with Department regulations, but some further revisions are needed. The
new policy places limits on the personal use of U.S. Government telecommunications equipment
and services, per 5 Foreign Affairs Manual (FAM) 511 and 5 FAM 522, but does not set clear
monetary limits, in accordance with 5 FAM 526.1 c. The policy does not specifically prohibit
personal long-distance calls, even with the intention of reimbursement, as per 5 FAM 523.1. The
new policy requires justification for issuing cell phones, based on official requirements, but does
not set a deadline for supervisors to submit justifications for the 90 cell phones already issued,
which could result in implementation delays. Previously, the embassy did not limit personal calls
but sought reimbursement, using a process that took at least 15 percent of one voucher
examiner’s time to issue monthly bills and follow up on delinquent payments. Currently, 70
personal phone bills are outstanding, some dating back to 2011, totaling $11,000, and the
embassy is now obliged to dedicate considerable staff time to closing out these accounts
receivable.

Recommendation 21: Embassy Bujumbura should further revise its cellular telephone policy to
comply with all applicable Department of State regulations and to reduce significantly the costs
and administrative burden attributable to personal cell phone use. (Action: Embassy Bujumbura)

Official Residence Expense Staff Salary Payments

      The Comptroller and Global Financial Services Charleston’s practice of making salary
payments directly to official residence expenses employees through electronic funds transfer is
noncompliant with regulation. Guidance in 3 FAM 3257 states permanent and part-time staff
                                                15
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

members employed under official residence expenses are employees of the principal
representative or household manager, not of the U.S. Government. The principal representative
will disburse the pay to these employees. The official residence expenses staff cannot be paid
directly from appropriations, U.S. Disbursing Officers, or cashiers. Embassy Bujumbura recently
published a new official residence expenses policy that does not clearly identify the employer-
employee relationship between the principal representative and the official residence expenses
employees and the requirement for the principal representative to pay directly salaries of official
residence expenses employees. The policy states “official residence expense[s] can be paid
directly or reimbursed to the employee,” which could be misconstrued to include direct embassy
payment of official residence expenses staff salaries.

Recommendation 22: Embassy Bujumbura should implement a policy whereby the chief of
mission and deputy chief of mission directly pay salaries to official residence expenses
employees. (Action: Embassy Bujumbura)

Outstanding Travel Advances

        The financial management unit has reduced the number of outstanding advances
significantly in recent months, after a long and difficult history of trying to make collections. The
embassy issued a new travel policy, with strict deadlines for travel voucher submission and
repayment of advances, when required. The policy allows for advances of lodging costs, with a
pro forma invoice, and only 80 percent of meals and incidental expenses costs, down from 100
percent in the old policy. This new travel policy provides an incentive for travelers to settle their
accounts promptly.

       Informal Recommendation 3: Embassy Bujumbura should clear the remaining
       outstanding travel advances and adhere to the strict guidelines published under the new
       travel policy.

Value-Added Tax

        The Government of Burundi is delinquent in its reimbursement of $209,000 in value-
added taxes. Since 2013, Burundian law prohibits reimbursement of valued-added taxes on fuel
and private purchases by diplomatic personnel. The Office of Foreign Missions is aware of these
issues and is working with the embassy to take appropriate action.

Human Resources

        The LE staff compensation plan, local leave and separation plans, and Foreign Service
national handbook are up to date, as are the retail price survey and differential reports. The LE
staff and eligible family member recruitment processes are transparent and well documented.

U.S. Direct-Hire Work Requirements Statements and Counseling

        The human resources unit is not tracking the completion of U.S. direct-hire work
requirements statements, which it should enter electronically in the ePerformance system 45 days
after the start of an employee’s rating period. In the previous and current rating cycles, the unit
                                                  16
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

has not issued written reminders about performance management counseling requirements, also
to be documented in ePerformance, in accordance with 3 Foreign Affairs Handbook (FAH)-1 H-
2815.1-2.

Recommendation 23: Embassy Bujumbura should track work requirements statements in
ePerformance, follow up on delinquencies, and publish notices reminding supervisors of
counseling requirements. (Action: Embassy Bujumbura)

Locally Employed Staff Performance Evaluations

        The human resources unit has made progress in eliminating the backlog of delinquent
employee evaluation reports. Its recent management notice outlines supervisors’ responsibilities
to submit timely work development plans and employee evaluation reports in accordance with 3
FAM 7600. The unit also created an automated reminder system to prevent and quickly follow
up on delinquencies. Thirty employee evaluation reports are more than 30 days overdue; the
within-grade increases are delinquent for 15 employees. One LE staff supervisor accounts for
half the reported delinquencies.

       Informal Recommendation 4: Embassy Bujumbura should, in accordance with
       Department of State guidelines, complete the outstanding employee evaluation reports,
       process within-grade increases, and consider disciplinary action against supervisors who
       are delinquent in meeting these responsibilities.

Locally Employed Staff Position Descriptions

        Over the past year, the human resources unit identified many missing LE staff position
descriptions and has completed its work to ensure that every LE staff file has a signed position
description. The human resources officer has also completed 40 position evaluation updates and
is methodically bringing LE staff files and position descriptions into compliance with 3 FAM
7513.1(4). Although supervisors must certify annually that all LE staff position descriptions are
accurate, the human resources staff does not remind supervisors of their obligation to update and
keep current LE staff position descriptions or provide supervisors with position descriptions
when performance reviews are due, providing the opportunity to update them. The unit’s
corrective action plan is to ensure that, by the end of 2014, no position description is more than
5 years old.

Recommendation 24: Embassy Bujumbura should hold supervisors responsible for reviewing
and revising locally employed staff position descriptions, as appropriate, on a yearly basis.
(Action: Embassy Bujumbura)

Post Report and Post Profile

        The post report was last updated in 2009 and has outdated information in several
sections, including the Burundian statistics, local political and security situation, embassy
buildings, links, and infrastructure. Portions of the post profile also are incorrect, including some
of the human resources, budgeting, and funding information. The key issues and consular
sections are also outdated. The post report and post profile are reference documents for
                                                  17
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

prospective bidders. Outdated information can affect negatively the embassy’s ability to recruit
personnel.

Recommendation 25: Embassy Bujumbura should update its post report and post profile.
(Action: Embassy Bujumbura)

Equal Employment Opportunity and Federal Women’s Program

        The newly trained and qualified Equal Employment Opportunity counselor has met some,
but not all, of the requirements of the Equal Employment Opportunity program. The embassy has
not yet complied with 13 FAM 312.1, 13 FAM 312.3, and Department cable 03 State 4155
guidelines, which require that all supervisors receive Equal Employment Opportunity training
and mandatory sexual harassment training and that all staff receive Equal Employment
Opportunity and diversity awareness training. The embassy does not have a Federal Women’s
program coordinator.

Recommendation 26: Embassy Bujumbura should take corrective action to meet the legal and
regulatory requirements of the Department of State Equal Employment Opportunity and Federal
Women’s Programs. (Action: Embassy Bujumbura)

General Services

        The general services officer manages a unit of 41 LE staff members. Since 2012, the
travel unit has not issued any tickets for business or first-class travel. The travel unit is compliant
with the Fly America Act. Short-term leased housing is adequate, administered equitably, and in
accordance with cost and space standards. Embassy Kigali, in neighboring Rwanda, receives,
consolidates, and packs out shipments for the embassy. The procurement unit partners well with
other management units. All contracts included Federal Acquisition Regulation clause 52.222-
50, Combating Trafficking in Persons. A review of selected procurement actions showed that
staff members follow competition and documentation regulations. However, the personal
property management and motor pool units do not comply with some Department regulations.

Personal Property Management

       The FY 2014 certificate of inventory reconciliation reported shortages of $35,123 in
nonexpendable and $3,000 in expendable inventories. Management attributes the shortage of
nonexpendable items, in part, to the move to the new embassy compound and plans to continue
looking for the missing items. Nevertheless, these shortages are below the Department’s
1-percent threshold. The overages were small. The OIG team counseled the staff on the
importance of following regulations, including conducting periodic inventory spot checks. In
2014, the unit disposed of 420 items, with a cost of $299,000, and sale proceeds of $42,098.

         The designated accountable property officer (general services officer) has not conducted
an annual property utilization survey, in accordance with 14 FAM 411.2-2(8). The embassy
indicated the property management software had problems. Without an annual property
utilization survey, the unit could be storing unneeded property or ordering unneeded inventory.

                                        18
                            SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

Recommendation 27: Embassy Bujumbura should conduct an annual property utilization
survey, in accordance with Department of State regulations. (Action: Embassy Bujumbura)

       Residential inventory files do not note the condition of household furniture at the change
of occupancy or charge occupants for damaged property, in accordance with 14 FAM 416.3 and
14 FAM 416.5. Staff members who damage property will not be held accountable.

Recommendation 28: Embassy Bujumbura should update its personal property management
procedures to note the condition of each residence at time of change of occupancy and charge the
former occupant for damages, in accordance with Department of State regulations. (Action:
Embassy Bujumbura)

       Repair costs are not entered in the personal property records, in accordance with 14 FAM
124.4 and 14 FAM 412.4-1 b(1), although the embassy advised that repair costs have been small.
The true cost of maintaining inventory will not be captured. The repair history is also used to
determine whether the embassy should hold on to assets.

Recommendation 29: Embassy Bujumbura should update its personal property management
procedures to enter repair costs in personal property files, in accordance with Department of
State regulations. (Action: Embassy Bujumbura)

       The unit does not maintain a record of completed requisitions (DS-583, Expendable
Supply Issue/Turn-In Request; DS-584, Nonexpendable Property Transaction; or Form DS585,
Nonexpendable Property Repair Work Order), in accordance with 14 FAM 414.5. Maintaining
copies of completed forms DS-583, DS-584, and DS-585 are important internal control and
recordkeeping procedures designed to prevent inaccuracies and theft.

Recommendation 30: Embassy Bujumbura should update its internal requisitioning personal
property management procedures to include the required forms. (Action: Embassy Bujumbura)

Motor Pool

        The current motor pool policy is outdated. The policy is dated May 3, 2011, and lists the
previous ambassador as the approving official. It also lists the previous management team as
cleared staff. The general services officer stated that the motor vehicle use policy will be sent out
for clearance by March 1, 2014. The motor pool unit updated charges for other authorized use.

       Informal Recommendation 5: Embassy Bujumbura should update its motor pool vehicle
       use policy.

Facilities Management

       The facilities maintenance unit maintains the embassy compound and four government-
owned residences. The unit follows prescribed preventive maintenance practices for the embassy
compound and is attentive to occupational health and environment safety guidelines. The staff
and DCM residences are in good overall condition. Since 2013, the chief of mission residence
has been undergoing major renovations. OBO construction projects totaling $911,000 for a roof
                                               19
                           SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED

replacement, interior rehabilitation, upgrade of the perimeter wall, and replacement of the fuel
tanks should correct all deficiencies. OBO has a $500,000 special project planned in FY 2014 to
expand the size of the vehicle maintenance bay. Otherwise, the unit’s focus is to resolve and
correct remaining punch list items left over from the new embassy compound construction.

Information Management

        The information technology unit, which is part of the management section, has
effectively overseen several projects, such as cable infrastructure replacement at the chief of
mission’s residence and expansion of the communications capability of the embassy’s alternate
command center.

Information Technology Contingency Plans

        The embassy does not have a valid information technology contingency plan for its
unclassified and classified systems, as required in 12 FAM 622.3-2. A properly documented and
tested information technology contingency plan affects the embassy’s capacity to operate
effectively in the event of a disaster or unforeseen incident. Information systems are vulnerable
to a variety of disruptions, and contingency planning and testing mitigates the risks such events
pose to embassy operations.

Recommendation 31: Embassy Bujumbura should create and test information technology
contingency plans for the unclassified and classified systems in accordance with Department of
State regulations. (Action: Embassy Bujumbura)

Off-Site Backup Tape Storage

        Embassy Bujumbura has not instituted off-site backup media storage procedures for
unclassified and classified systems. To minimize the potential for complete loss of data in an
emergency, the embassy needs to provide for an off-site storage location in an approved and
controlled facility, in accordance with 12 FAM 629.2-9. In a catastrophic event, it is imperative
the embassy have backup media stored in another location.

Recommendation 32: Embassy Bujumbura should implement off-site backup tape storage for
the unclassified and classified systems. (Action: Embassy Bujumbura)

Emergency Power Cutoff Switches

        Emergency power-off controls for the information systems center and the information
programs center computer rooms are not located outside the main doors, as specified in 12 FAM
629.4-3. In addition, no clear plastic covers are available to protect from accidental triggering. In
an emergency, embassy staff may not be able to physically access the computer room to shut off
power. In addition, lack of a clear plastic cover over the emergency power-off control can result
in the inadvertent shut down of computer and network systems.

Recommendation 33: Embassy Bujumbura should relocate the emergency power-off controls
for the information systems center and information programs center computer rooms to outside
                                               20
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

the main doors and install plastic covers to protect from accidental triggering. (Action: Embassy
Bujumbura)

Contingency Communications Tests

        Portable contingency communications assets are essential in the event of telephone and
telegraphic circuit outages or remote emergency field operations. Although the embassy is
performing live monthly tests of the two portable satellite terminals, per 5 FAH-2 H-653.2, not
all peripheral equipment, such as laptops, is being checked. To ensure operational readiness, it is
important that the embassy include all portable satellite terminals and associated equipment in its
monthly tests, as well as train LE staff to operate these systems.

       Informal Recommendation 6: Embassy Bujumbura should train appropriate locally
       employed staff to operate the portable satellite terminals and associated equipment.

       Informal Recommendation 7: Embassy Bujumbura should perform monthly tests of
       all portable satellite terminals and associated contingency equipment.




                                       21
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Bujumbura has a tropical climate and good restaurants but is isolated, offers few
entertainment options, and has limited goods and services. U.S. direct hires receive 5-percent
danger pay, 25-percent hardship differential, 20-percent cost of living allowance, 2,500 pounds
of consumables, and 2 rest and recuperation trips for a 2-year assignment. A 15-percent service
needs differential is required for a third-year extension.

Community Liaison Office

        Of the 10 eligible family members, none is willing to fill the community liaison office
coordinator position. The embassy hired a local employee to act as coordinator for a 6-month
period. She receives high marks and has developed four levels of activities to promote general
morale and community cohesiveness.

Schools

        In spring 2014, the regional education officer will conduct a much-needed review of local
schools. The community liaison office coordinator stated that the schools are rated as poor and
noted the absence of an American school. Three schools popular among Americans and other
expatriates include a French-language school with a Belgian curriculum, an English-language
school with a British Christian curriculum, and a Montessori school that teaches in English and
French. The only U.S. direct-hire school-age dependent attends the Belgian school.

Health Unit

       Embassy staff highly rate health unit services. A regional medical officer and regional
medical officer/psychiatrist based in Nairobi, as well as two full time LE staff nurses, provide
medical services. An additional Foreign Service health practitioner position has been vacant
since August 2013. The unit also provides limited occupational health services to LE staff.

American Employee Recreation Association

      Management cited insufficient staff interest and inadequate American staffing to sustain
an employee recreation association as reasons for not forming one. Bujumbura is also a
consumables post.




                                       22
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Management Controls
       The annual chief of mission management controls statement of assurance, dated July 17,
2013, shows that the embassy completed all required internal management controls reviews. The
evaluation disclosed two potential material weaknesses, which the embassy corrected.




                                      23
                          SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Bujumbura should delegate authority over internal mission
management to the deputy chief of mission and publicize this decision to all mission elements.
(Action: Embassy Bujumbura)

Recommendation 2: Embassy Bujumbura, in coordination with the Office of Management
Policy, Rightsizing, and Innovation and the Bureau of Human Resources, should resubmit its
rightsizing report on the basis of current operating conditions, realistic staffing predictions,
programmatic and funding goals, and the minimum number of U.S. direct-hire staff necessary to
run the embassy. (Action: Embassy Bujumbura, in coordination with M/PRI and DGHR)

Recommendation 3: The Bureau of African Affairs, in coordination with the Bureau of
Human Resources, should provide a response to Embassy Bujumbura’s Mission Resource
Request and Integrated Country Strategy, in particular with regard to projected staff growth.
(Action: AF, in coordination with DGHR)

Recommendation 4: Embassy Bujumbura should finalize agreements with the Department of
Defense for administrative support services for the indefinite-term military personnel operating
in embassy facilities and using embassy services. (Action: Embassy Bujumbura)

Recommendation 5: Embassy Bujumbura should request the U.S. Africa Command to submit
National Security Decision Directive 38 requests to formalize the continuing presence of liaison
and other positions in accordance with Department of State procedures for positions occupied
beyond 1 year from establishment. (Action: Embassy Bujumbura)

Recommendation 6: Embassy Bujumbura should seek guidance from the Department of State
before expending further resources on the atrocities prevention/conflict mitigation pilot project.
(Action: Embassy Bujumbura)

Recommendation 7: Embassy Bujumbura should establish a structured professional
development and mentoring program for first- and second-tour officers that includes the active
engagement of the deputy chief of mission. (Action: Embassy Bujumbura)

Recommendation 8: Embassy Bujumbura should establish a combined political/economic
section and revise position descriptions accordingly. (Action: Embassy Bujumbura)

Recommendation 9: Embassy Bujumbura should identify a third officer to be a warranted
grants officer and obtain the requisite certification for that officer. (Action: Embassy Bujumbura)

Recommendation 10: Embassy Bujumbura should require all embassy personnel involved in
Leahy vetting to receive Leahy vetting training. (Action: Embassy Bujumbura)

Recommendation 11: Embassy Bujumbura should amend its Integrated Country Strategy for
FYs 2015–2017 to assign no more than five key activities to the public affairs section. (Action:
Embassy Bujumbura)


                                       24
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 12: Embassy Bujumbura should submit its first public diplomacy
implementation plan to the Office of the Under Secretary for Public Diplomacy and Public
Affairs. (Action: Embassy Bujumbura)

Recommendation 13: Embassy Bujumbura should revise the position description of the
cultural assistant (position no. C70100) to have an incumbent serve as grants officer
representative and receive the requisite training and certificate. (Action: Embassy Bujumbura)

Recommendation 14: Embassy Bujumbura should close its Facebook and YouTube pages.
(Action: Embassy Bujumbura)

Recommendation 15: Embassy Bujumbura should require the consular officer’s supervisor to
perform nonimmigrant visa adjudication reviews in accordance with Department of State
regulations. (Action: Embassy Bujumbura)

Recommendation 16: Embassy Bujumbura should establish a structured training program for
the new consular section chief. (Action: Embassy Bujumbura)

Recommendation 17: Embassy Bujumbura, in coordination with the Bureaus of African
Affairs and Consular Affairs, should designate an additional officer position to have backup
consular responsibilities. (Action: Embassy Bujumbura, in coordination with AF and CA)

Recommendation 18: Embassy Bujumbura should meet with missionary groups and
nongovernmental organizations to explain the embassy’s consular crisis plans, review these
organizations’ crisis plans, and explore ways to collaborate. (Action: Embassy Bujumbura)

Recommendation 19: Embassy Bujumbura should periodically provide the Bureau of
Consular Affairs with an updated risk assessment. (Action: Embassy Bujumbura)

Recommendation 20: Embassy Bujumbura should coordinate its crisis plans with U.S.
embassies in the region. (Action: Embassy Bujumbura)

Recommendation 21: Embassy Bujumbura should further revise its cellular telephone policy
to comply with all applicable Department of State regulations and to reduce significantly the
costs and administrative burden attributable to personal cell phone use. (Action: Embassy
Bujumbura)

Recommendation 22: Embassy Bujumbura should implement a policy whereby the chief of
mission and deputy chief of mission directly pay salaries to official residence expenses
employees. (Action: Embassy Bujumbura)

Recommendation 23: Embassy Bujumbura should track work requirements statements in
ePerformance, follow up on delinquencies, and publish notices reminding supervisors of
counseling requirements. (Action: Embassy Bujumbura)

Recommendation 24: Embassy Bujumbura should hold supervisors responsible for reviewing
and revising locally employed staff position descriptions, as appropriate, on a yearly basis.
(Action: Embassy Bujumbura)

                                       25
                           SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED

Recommendation 25: Embassy Bujumbura should update its post report and post profile.
(Action: Embassy Bujumbura)

Recommendation 26: Embassy Bujumbura should take corrective action to meet the legal and
regulatory requirements of the Department of State Equal Employment Opportunity and Federal
Women’s Programs. (Action: Embassy Bujumbura)

Recommendation 27: Embassy Bujumbura should conduct an annual property utilization
survey, in accordance with Department of State regulations. (Action: Embassy Bujumbura)

Recommendation 28: Embassy Bujumbura should update its personal property management
procedures to note the condition of each residence at time of change of occupancy and charge the
former occupant for damages, in accordance with Department of State regulations. (Action:
Embassy Bujumbura)

Recommendation 29: Embassy Bujumbura should update its personal property management
procedures to enter repair costs in personal property files, in accordance with Department of
State regulations. (Action: Embassy Bujumbura)

Recommendation 30: Embassy Bujumbura should update its internal requisitioning personal
property management procedures to include the required forms. (Action: Embassy Bujumbura)

Recommendation 31: Embassy Bujumbura should create and test information technology
contingency plans for the unclassified and classified systems in accordance with Department of
State regulations. (Action: Embassy Bujumbura)

Recommendation 32: Embassy Bujumbura should implement off-site backup tape storage for
the unclassified and classified systems. (Action: Embassy Bujumbura)

Recommendation 33: Embassy Bujumbura should relocate the emergency power-off controls
for the information systems center and information programs center computer rooms to outside
the main doors and install plastic covers to protect from accidental triggering. (Action: Embassy
Bujumbura)




                                       26
                           SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Bujumbura should issue guidelines on the
coordination of reporting on security and political-military issues.

Informal Recommendation 2: Embassy Bujumbura should identify staff members in each
section that oversees a grant to be certified as grants officer representatives.

Informal Recommendation 3: Embassy Bujumbura should clear the remaining outstanding
travel advances and adhere to the strict guidelines published under the new travel policy.

Informal Recommendation 4: Embassy Bujumbura should, in accordance with Department of
State guidelines, complete the outstanding employee evaluation reports, process within-grade
increases, and consider disciplinary action against supervisors who are delinquent in meeting
these responsibilities.

Informal Recommendation 5: Embassy Bujumbura should update its motor pool vehicle use
policy.

Informal Recommendation 6: Embassy Bujumbura should train appropriate locally employed
staff to operate the portable satellite terminals and associated equipment.

Informal Recommendation 7: Embassy Bujumbura should perform monthly tests of
all portable satellite terminals and associated contingency equipment.




                                      27
                          SENSITIVE BUT UNCLASSIFIED
                          SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                          Name       Arrival Date
Ambassador                                       Dawn M. Liberi             01/13
Deputy Chief of Mission               Vacant – TDY Acting DCM
                                               Sharon Rutherford           01/14
Chiefs of Sections:
  Management                                       Irvin Hicks Jr.         09/12
  Consular                                           Ulrika Joyce          05/13
  Political                                           Kim Jordan           07/11
  Economic                                        Stacey Maupin            05/12
  Public Affairs                                     Matt Britton          07/13
  Regional Security                                 Sarah Cloeter          06/13
Other Agencies:
  Department of Defense/Senior
  Defense Official                            Lt. Col. Dan Ebert           03/12
  Office of Security Cooperation        Maj. Richard Sonnenfeld            03/13
  U.S. Agency for International         Acting Country Director            11/13
    Development                                 Michelle Shirley




                                      28
                          SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG              Broadcasting Board of Governors

DCM              Deputy chief of mission

Department       U.S. Department of State

DOD              Department of Defense

FAH              Foreign Affairs Handbook

FAM              Foreign Affairs Manual

FAST             First- and second-tour (officers)

ICASS            International Cooperative Administrative Support Services

ICS              Integrated Country Strategy

LE               Locally employed

OBO              Bureau of Overseas Buildings Operations

USAID            U.S. Agency for International Development




                            29
                SENSITIVE BUT UNCLASSIFIED
 SENSITIVE BUT UNCLASSIFIED




 FRAUD, WASTE, ABUSE,
 OR MISMANAGEMENT
OF FEDERAL PROGRAMS
   HURTS EVERYONE.

         CONTACT THE
 OFFICE OF INSPECTOR GENERAL
            HOTLINE
      TO REPORT ILLEGAL
   OR WASTEFUL ACTIVITIES:


         202-647-3320
         800-409-9926
      oighotline@state.gov
          oig.state.gov

   Office of Inspector General
    U.S. Department of State
         P.O. Box 9778
     Arlington, VA 22219




 SENSITIVE BUT UNCLASSIFIED
